                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGA TIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: AIOll0080                                                                      Page 1 of 1



         NSF OIG received an allegation that a Subject l published papers containing an idea similar to that
         contained in another researcher's2 paper, which was published seven years earlier.

         Our preliminary analysis indicated that the Subject might reasonably not have known of the
         researcher's work and that he could have developed the same ideas on his own.

         Independent of our analysis, the University3 decided to proceed to an inquiry, which recommended a
         formal investigation not be conducted because the evidence did not support the allegation of
         plagiarism. Specifically, the University determined from evidence and interviews that the Subject
         had not been aware ofthe other researcher's work.

         Based on the University's assessment and our own analysis, this case is closed with no further
         action taken.




NSF OIG Form 2 (11/02)
